Supreme Court, U.S.
FILED

WAIVER

OCT 2 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5846

Kelly Lake, et al.

Anthony C. Green

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one,is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Kevin Moser, Steven Sayovitz, Ann Zimmerman, Nicole Marvel, and Greg Swenson

I am a member of the Bar of the Supreme. Court of the United States.
„.
0 I am not presently a member of the Bar of this. Court. Should a responSe be requested, the response
will be filedby a Bar' me en
0

Signature

IQ

Date.

—'r Z 0

(Type orprint) Name
Firm

Molly Beckius, Assistant Attorney General
0 Mr. 0 Ms. . 0 Mrs. .0 Miss

Office of the Minnesota Attorney General

Address

445 Minnesota Street, Suite 1400

City & State
Phone

St. Paul, MN

(651) 757-1348

Zip

55101-2128

Email M011y.beckius@ag.state.mn.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
A COPY
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF
D.
REQUIRE
IS
SERVICE
OF
OF THIS FORM. NO ADDITIONAL CERTIFICATE
CC: Anthony C. Green, Pro Se; Jon Iverson, Esq.; Ryan Zipf, Esq.

Re:

Green v. Kelly Lake, et al
Supreme Court Case No. 20-5846

STATE OF MINNESOTA
) ss
COUNTY OF RAMSEY )

AFFIDAVIT OF SERVICE

I, Laurie Fontaine, state that on October 23, 2020, I served the Waiver of Respondents
Kevin Moser, Steven Sayovitz, Ann Zimmerman, Nicole Marvel, and Greg Swanson, by
placing a true and correct copy of the document in envelopes addressed to:

Anthony C. Green
Minnesota Sex Offender Program
1111 Highway 73
Moose Lake, MN 55767

Jon Iverson, Esq
Iverson, Reuvers, Condon
9321 Ensign Avenue South
Bloomington, MN 55438

Ryan Zipf, Esq.
145 University Ave West
St. Paul, MN 55103

and depositing the envelopes, with sufficient postage, in the U.S. Mail in St. Paul, Minnesota.

Laurie Fontaine
Subscribed and sworn to before me
3rd day of October, 2020.

1

Public

DEBORAH A COOPER
NOTARY PUBLIC
MINNESOTA
My Commission Expires Jan. 31, 2024

RZCE1VED
NOV - 3 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

